(' t
'..
      'It
  ~'~4""'ClSÚS.
     ~~""IlO
                       DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                               Office of Inspector General



                                                                                                                            Washington, D.C. 20201




                                                                         APR 10 2009




             TO:                    Jackie Garner
                                    Acting Director, Center for Medicaid and State Operations
                                    Centers for Medicare & Medicaid Services


            FROM:
                                        ~1jJ.M~
                                    Stuart Wright'/S/l
                                    Deputy Inspector General
                                      for Evaluation and Inspections


            SUBJECT:                Memorandum Report: "Potential Improper Medicaid Payments for Outpatient
                                    Clinical Diagnostic Laboratory Services for Dual-Eligible Beneficiaries,"
                                    OEI -04-07 -00340



            This memorandum report provides information on potential improper Medicaid payments for
            outpatient clinical diagnostic laboratory services that were provided on an assignment-related
            basis during fiscal years (FY) 2005 and 2006 to dual eligibles who were Medicare Part B
            beneficiaries. Dual eligibles are beneficiaries who are enrolled in Medicare Part A and/or Part B
            and also entitled to some Medicaid benefits.! State Medicaid programs should not pay for any
            portion of outpatient clinical diagnostic laboratory services that were provided on an
            assignment-related basis to dual eligibles who are enrolled in Medicare Paii B.2 However, we
            found that Medicaid programs in 8 of 11 selected States spent a total of $1.3 milion in potential
            improper payments for these services in FYs 2005 and 2006. Over half of      this amount
            corresponded to five Current Procedural Terminology (CPT) codes. One of                                 these codes
            accounted for almost 30 percent of the potential improper payments we identified.

            BACKGROUND

            As of January 2006, there were over 6 million dual eligibles nationwide.3 Both Medicare and
            Medicaid have regulations to determine which program covers the cost of services provided for
            dual eligibles, as well as the payment rates for those services.

            1 The Centers for Medicare & Medicaid Services (CMS), "Dual Eligibility: Overview." Available online at
            http://www.cms.hhs.gov/dualeligible/01 overview.asp. Accessed March 1,2008. Not all dual eligibles qualify for
            full Medicaid benefits (i.e., some dual eligibles receive Medicaid assistance only for paying some or all of the
            Medicare premiums, deductibles, and copayments).
            2 Pursuant to 42 U .S.C. § I 3951(a)(1 )(0), with respect to clinical laboratory services paid under the clinical

            laboratory fee schedule on an assignment-related basis, Medicare shall pay 100 percent of              the lesser of   the actual
            charge, the fee schedule amount, or the National Limitation Amount.
            3 Kaiser Family Foundation. "Resources on Dual Eligibles and Issues to Their Transition to the New Medicare
            Drug Benefit." Available online at http://www.kff.org/medicaid/dualsrx.cfm. Accessed October 28, 2008.

            OEI-04-07-00340                    Potential Improper Medicaid Payments for Outpatient Laboratory Services for Dual-Eligible
                                               Beneficiaries
Page 2 – Jackie Garner


For a dual eligible, services that are covered by both Medicare and Medicaid will be paid first by
Medicare. Any remaining balance for a service will be covered by Medicaid up to the State’s
payment limit.4

Outpatient Laboratory Services Provided for Dual Eligibles
Dual eligibles may receive clinical diagnostic laboratory services in different settings, such as
independent laboratories, physicians’ offices, hospitals, and clinics. After laboratory services are
rendered, providers submit claims to Medicare for payment using CPT codes. These codes
determine amounts that Medicare will pay for services. The 2005 and 2006 Medicare Clinical
Laboratory Improvement Amendments fee schedules included approximately 1,080 CPT codes
under the “Pathology and Laboratory” classification.5

Generally, Medicare payment for outpatient clinical laboratory tests may be made only on an
assignment-related basis (i.e., the Medicare-paid amount is the payment in full).6 With respect to
clinical laboratory services paid on an assignment-related basis, Medicare pays 100 percent of
the lesser of the actual charge, the fee schedule amount, or the National Limitation Amount and
no deductible or copay is required.7 Therefore, when Medicare Part B is liable for payment of
100 percent of a dual eligible’s clinical laboratory services, no payment should be made by the
recipient’s State Medicaid program.

METHODOLOGY

Scope
We determined the extent to which Medicaid programs in 11 selected States made payments on
an assignment-related basis for dual-eligible fee-for-service outpatient clinical diagnostic
laboratory services during FYs 2005 and 2006.

Data Collection and Analysis
State Selection. We obtained FY 2005 Medicaid Statistical Information System (MSIS)
eligibility and claims files from CMS. The MSIS is a CMS-maintained database and the only
source of nationwide Medicaid data. We analyzed MSIS claims and eligibility data from all 39
States that had submitted this information to CMS as of July 2007.8 First, we identified
payments associated with dual eligibles using the dual-eligible identifier in the MSIS eligibility
file. Next, we totaled fee-for-service payments for all clinical diagnostic laboratory services
provided to dual eligibles by State.9

4
  CMS, “Dual Eligibility: Overview.” Available online at http://www.cms.hhs.gov/dualeligible/01_overview.asp.
Accessed October 28, 2008.
5
   A fee schedule is a listing of codes with the corresponding maximum amounts that a provider may receive in
payment for each code.
6
  CMS, “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 16, § 30.1. Available online at
http://www.cms.hhs.gov/manuals/Downloads/clm104c16.pdf. Accessed February 9, 2009.
See 42 U.S.C. § 1395l(h)(5)(C) (excluding rural health clinics from this requirement).
7 42 U.S.C. §§1395l(a)(1)(D) and (b)(3).
8
  FY 2005 MSIS eligibility and claims files were the most current data available as of July 2007.
9 We identified these services using all clinical diagnostic laboratory CPT codes listed in the FY 2005 Medicare fee

schedule.

OEI-04-07-00340            Potential Improper Medicaid Payments for Outpatient Laboratory Services for Dual-Eligible
                           Beneficiaries
Page 3 – Jackie Garner


We then selected the 10 States with the highest Medicaid payments for all clinical diagnostic
laboratory services for dual eligibles: California, Florida, Illinois, Ohio, Mississippi,
New Jersey, New York, North Carolina, Tennessee, and Texas.10 We also selected Washington,
based on discussions with CMS officials, for a total of 11 States.11

Calculating Potential Improper Payments. Next, we obtained payment data from each of the
11 selected States’ Medicaid Management Information Systems (MMIS). Specifically, we
obtained information on FYs 2005 and 2006 Medicaid payments for dual eligibles for all clinical
diagnostic laboratory CPT codes listed in the 2005 and 2006 Medicare fee schedules.12 13

We then sorted the clinical diagnostic laboratory CPT codes included in the MMIS data that we
obtained by service location and excluded services provided in inpatient settings. We also
excluded outpatient laboratory services provided in rural health clinics and critical access
hospitals.14 For all 11 selected States, Medicaid paid for 104,070 outpatient clinical diagnostic
laboratory services that were provided to dual eligibles on an assignment-related basis. Finally,
we calculated the amount each selected State Medicaid program paid for these services.

Limitations
The data obtained for Texas were from CYs 2005 and 2006; the data for Washington were from
CY 2005 only.15 Therefore, the results for these two States do not reflect improper payments for
the entire timeframe under review, i.e., FYs 2005 and 2006.




10
   We excluded payments for services provided in inpatient settings.
11
   Meeting with CMS officials in June 2007.
12 The data we obtained for Texas were from calendar years (CY) 2005 and 2006; CMS officials provided us with

Washington MMIS data for CY 2005 only.
13 We requested States to provide payment information for dual eligibles only. We confirmed that these payments

were for Medicaid recipients who were also enrolled in Medicare Part B as of July 2007 using the CMS Enterprise
Cross Reference. The Enterprise Cross Reference matches beneficiary identification numbers from MMIS and the
Medicare Enrollment Database.
14 Payments for outpatient clinical diagnostic laboratory services furnished to critical access hospitals are made on a

reasonable cost basis. CMS, “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 16, § 10.2.
Available online at http://www.cms.hhs.gov/manuals/Downloads/clm104c16.pdf. Accessed February 9, 2009.
Rural health clinics are not required to accept assignment. 42 U.S.C. § 1395l(h)(5)(C).
15 The 2006 data for Washington were unavailable from CMS.



OEI-04-07-00340            Potential Improper Medicaid Payments for Outpatient Laboratory Services for Dual-Eligible
                           Beneficiaries
Page 4 – Jackie Garner


Standards
This study was conducted in accordance with the “Quality Standards for Inspections” issued by
the President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency.

RESULTS

Eight of Eleven Selected State Medicaid Programs Spent a Total of $1.3 Million in
Potential Improper Payments During FYs 2005 and 2006 for Outpatient Clinical
Diagnostic Laboratory Services for Dual Eligibles
Of the $1.3 million in potential improper payments, $722,906 was paid in FY 2005 by 8 of the
11 selected States. The remaining $563,820 was paid in FY 2006 by 7 of 10 States.16

Table 1 shows potential improper Medicaid payments in FYs 2005 and 2006 for outpatient
clinical diagnostic laboratory services for dual eligibles by State.

                                                          Table 1
              State                FY 2005 Potential             FY 2006 Potential           Total Potential
                                  Improper Medicaid             Improper Medicaid        Improper Medicaid
                                          Payments                      Payments                  Payments
              California                     $1,401                        $4,081                    $5,482
              Florida                       $21,967                       $12,981                   $34,948
              Illinois                           $0                            $0                        $0
              Mississippi                        $0                            $0                        $0
              New Jersey                         $0                            $0                        $0
              New York                      $63,160                       $66,052                  $129,212
              North Carolina                 $4,137                        $5,123                    $9,260
              Ohio                          $35,677                       $24,016                   $59,693
              Tennessee                     $63,809                       $45,775                  $109,584
              Texas*                       $388,787                      $405,793                  $794,580
              Washington**                 $143,968                           NA                   $143,968
                     TOTAL                 $722,906                      $563,820                $1,286,726
             Lines may not sum to totals because of rounding.
             * CYs 2005 and 2006 data.
             ** CY 2005 data only.


Fifty-five Percent of Potential Improper Medicaid Payments Corresponded to Five CPT
Codes
The following CPT codes represented the most frequently reimbursed services: 36415, 85025,
80053, 81000, and 87536. These five services represented 55 percent of all potential improper
Medicaid payments that we identified. Code 36415 represented 29 percent of the total potential
improper payments.




16   The 2006 data for Washington were unavailable and, therefore, were not included in the analysis.

OEI-04-07-00340              Potential Improper Medicaid Payments for Outpatient Laboratory Services for Dual-Eligible
                             Beneficiaries
Page 5 – Jackie Garner


Table 2 lists the top five CPT codes associated with improper Medicaid payments in
FYs 2005 and 2006 for outpatient clinical diagnostic laboratory services for dual eligibles and
the potential improper payments associated with each code.

                                                    Table 2
   CPT Code                             Description             Total Potential             Percentage of Total
                                                            Improper Medicaid               Potential Improper
                                                                     Payments               Medicaid Payments
   36415              Collection of venous blood by                   $379,065                             29%
                                       venipuncture
   85025                  Complete, automated, and                      $166,457                              13%
                  automated differential white blood
                                          cell count
   80053            Comprehensive metabolic panel                        $57,981                               5%
   81000              Urinalysis, nonautomated with                      $50,884                               4%
                                         microscopy
   87536                       HIV-1, quantification                      $49,771                              4%

   Others            All remaining procedure codes                      $582,568                             45%
      TOTAL                                                           $1,286,726                            100%


CONCLUSION

In FYs 2005 and 2006, 8 of 11 selected State Medicaid programs paid a total of $1.3 million in
potential improper payments for outpatient clinical diagnostic laboratory services provided on
assignment to dual eligibles. These results demonstrate that opportunities exist to educate State
Medicaid programs that they should not pay for any portion of these services. To facilitate
followup, we will provide a summary of these potential improper Medicaid payments under
separate cover.

This memorandum report is being issued directly in final form because it contains no
recommendations. If you have comments or questions about this memorandum report, please
provide them within 60 days. Please refer to memorandum report OEI-04-07-00340 in all
correspondence.

cc: Jacquelyn White
    Director, Office of Strategic Operations and Regulatory Affairs
    Centers for Medicare & Medicaid Services




OEI-04-07-00340          Potential Improper Medicaid Payments for Outpatient Laboratory Services for Dual-Eligible
                         Beneficiaries
